HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02661)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02661)
January 8, 2003
Complete Text of Report is available in PDF format
(439 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this analysis was to evaluate the effectiveness of carriers
claims processing systems in identifying payment reductions for multiple ambulatory
surgical center procedures for calendar years 1997 through 2001.  Regulations
require that when multiple services are provided in the same operative session,
the highest paying procedure is reimbursable at the full payment rate while
the other procedures are reimbursable at one-half the normal payment rate.
Our analysis showed that National Heritage Insurance Company of New Englands
systems failed to identify such instances, which resulted in provider overpayments
for calendar years 1997 through 2001 of approximately $1,196, $25,017, $48,619,
$37,604 and  $50,074 ($162,510), respectively.  Included in the identified
overpayments is approximately $32,762 in beneficiary overpayments for coinsurance.
Most of the overpayments occurred because the carriers processing system did
not identify multiple procedures performed during the same session when submitted
on separate claims.